Supremo Court, U.S.
FILED

JUL 2 7 2020
OFFICE OF THE CLERK

No.

IN THE
SUPREME COURT OF THE UNITED STATES

T)OA/AfFJ.I l-l/)Wk7AJ\

— PETITIONER

(Your Name)
vs.

UjVjJTED STfiTE.1 OF flfiFRKA — RESPONDENT(S)
ON PETITION FOR A WRIT OF CERTIORARI TO

dJ-HConr Cnuer or APPEALS
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

on A)t 11 )^d[yjkj a s

2,7 o'h- Ok 0

(Your Name)

F

aF

P.OtfioX l Q

(Address)

*

(City, State, Zip Code)

aj/a

n Fn}

QUESTION(S) PRESENTED

0 Wh-tkh<_r iht District Court Erred /oy

On Uu. Sinctvun of n u^s.c. I 36^(060 ^Ad
U$S{?.
Dppjos-td lo iZS^XCoCOC^
'Wh-tA JTt Uu/ckel CL Motion Und'CT §LlOLl of iht

■

p;^t $t</> M?

LIST OF PARTIES

All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES

Unjitd SiciicS V- 1-iOLijk/flS^ A/ot S'0G~5o$-PPG) US Idkifkt
£ourl for

/OorLhtrsi Dtitr/Cl of Of/o,

Cfod^nd-td-i ■Oltl/'-cd on

Mtcyltlool ccad Apr;l

irlciuk-/fl.% ) Afl/.S 0J~2(,yUnd iqUS' touri of fjpp^li for tAt Sink
Pfoct^mtdi.

Vn;itd

V'

•Cn’LcT'cd on MdV^/L§i/L<Do7^ A/o^rmb-tr

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION

a

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
STATEMENT OF THE CASE

7

REASONS FOR GRANTING THE WRIT

10

CONCLUSION

INDEX TO APPENDICES
APPENDIX A

£)<tc>5/o/) of Ch-t

APPENDIX B

Courk of DppudS

Of ih-L.£>/Yih bidf/dz Cou(~iz

APPENDIX C Am?-nd<Lcl

of ihc

Circu/f Court of

APPENDIX D Orfar of S/xfc/i t/fCoii Court of ApP+cJ^ clt^A^

APPENDIX E Ca.it of Un/tud Siahcs v- //olioU;gjy^
APPENDIX F

?>
H

F-'&d (ohO (Oj

LJ/liitd SiaJct-S B-cniiAUA^ &u/d<J//US & l $1*10

flPPZhftXLXB f4 US.C,
flPPe^DcrX H Firsi SUp Ad of OA/tf,

5i^i. 5i9V

pud. U /Vo. i/5-3^

TABLE OF AUTHORITIES CITED
CASES

PAGE NUMBER

Un}l^d SlaheS v-

f<lxf 33 & (joih dir. Qxflb)

O/l /t-ccJ Sicej-tS v- Bq137? F^ojp^J
{jnii<d

i>, IdollotJQjJj

^SG

(££> A77cK^ol<f)" ^ ^

7,?

QQq

STATUTES AND RULES

nv.bl.h 35?<l(cXfXBV-

^ use. ^ 33m0(3)------

3-

7> $2! 0

K u.^c $ 37« 606)----------

—3,%S;C,7,$,9
(3

31 (7-S.C. 5 W&Pi') asid Cfo tf$\
X% U.SG ^ l2.SH.Ci)-----------

3

2<S USC. § 12LS7(a2\-------------Ftd.UtS oF ftpp. P- 4o------F*-d. Holts of flpp. P- 33------

S
5

OTHER

OASirtO ,S77)Tjrj S£SU7E(0ei^G
V,?
Tkt Fa.!r S-c/i t*/itin^ Ac{ o f 2.01-0-)PuGtl /O o. M- 22.0
Tht First Step ficiofaolt1 faLi-Alo. WS--3?/, IWj)— pa«;^

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
p/f For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix /I jCf to
the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
Mf is unpublished.
The opinion of the United States district court appears at Appendix 13
the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
K) is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix_____ to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the _
appears at Appendix

court
to the petition and is

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

to

JURISDICTION
[ vf For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was______________________
[ ] No petition for rehearing was timely filed in my case.
[vf A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: ______________
and a copy of the
order denying rehearing appears at Appendix 0
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including_______
(date) on
(date)
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix_______
[ ] A timely petition for rehearing was thereafter denied on the following date:
______________________ , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

a.

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

Tht

Sitp ftci. of 9-Oil, Pub.L-AM- IFy-Wl)
11% sui.smgL'ii- —fipf^cux ok Aptml;k- H ■

1% Ui.C-4 SSHfUC) c^ppia^i, a-L Appundik- &.

3-

STATEMENT OF THE CASE

JXa Xool1 Ha-vhf/iS ^.ni-cr-td cl Qurlh^ pjtcu io cl
Cho'I'Q-L °f fOSSeS-S
u>iU Iritcii -to dlstr/bots f>0
Qra/vi^ or /Wore. oF coc#7/r iious^ F/z violet on of %i v.s.c, ^
%HU£)Cf) clsigI {£)(fi(ft), bt/S C<Lr-c/r offlfid-tr S-t/li-tAUr/p
QU/dtli/jLC rglaq-L ljcuS XtX it 327 MoaUi^ oP liA-pri6ofLML/ii]
but thl SL/lhLaU/iy Coori CLtJopitd five pdfi'/S r<.i<s/*/*<./idcL,i>on
6et forth //) ik-t. ph<L- CcpC-lA/rft/)t thoJo PcxxaKJaC> Should f-L
S-CCiimt-td to X^O /AO/likS-^lh t Si^iu iorp^ /AGLAcl&Xor^
/ntAl^Au/n) s Aip a!Soc^mt ou-nd iopyc^n, of supJLCvIsut
r-tUaSt' SZn XDW) iht f>jf Sitfi Act CUCL& pcuSS-td*
oLl collo^s ih<. /1-cbLoetchv-c cuppUtai/ofi of tkt Pcuir
iLniintin^ Ptl of doto to qiltenets f/«pos<d bifor-t
X0/0- bta-Ljk,‘/)S UclS Subject io cl /McL/ulfLiorjy mJnf/AKjn
S/ntrnC/ of IXo months a./id cl ^rl/nu/n Sop^rD/S/d
Fckzst t/rrc of %-'j'tCLrs, bUuiK/AS t/vcr-tfor/ f/UJ
cl

/Yioi'on t hr&UL^k Cou/lSll for cl Sent/acl r/duett of)

io 1%° /*oniks co/id P> p-cclcs of sup/r vis-cd r/l-caSi •
O/j April iXiXrolH) the d;$tr;c{ Court z/iiited
Its ruling or
Ccupi/ontd

6lcLA<da.rd (Lo^ri forn f)0-XL17 which /S
OPdPP
MOTXLOAJ PoP SPA)7£AJC£
cl

ftEbUCTSLO/O PUPi>[)PlVT T° If VAC$ ASfXOC'O." TkX
forpd 7nd7fcti/d tbcd tk/ d/ctr/ct Court pock Into
a^CtouAt xkt policy SiAfi/n/dt S-tt forth cct U£>&&'$
iBhlO. Tht dtsicjct Court Qra/trd th/ nidi on /n

4

p^tr4.) reducing tha tarmi of Supneuis>ad relaas-e to
o^Mt yzsLret /iovoevir-j tha Court denied the rdofion
to reduce the term of impriSonnieni^ /lot/a'j that the
guideline Semtc/i Ci/tg rcmge irernicUned at AtiLt* 3X7
/non tkS, 0/1 appraf am?o4g other argument^) WavifinS
Curbed that "the district Court treed essentiajtg
finding hi/n i/ullyble for cl reduction of ffS {LM month
ftrri of imprison me/} h because il Impro perlg applied
the Iq-laj governing a, 1$ UAL, § 3S%X(0(2) motion cx/id
tht,txdutions'tont/U/ied in USS.G-t 131 do(£)Ct)(0) to his
/motion under § HHit) of tht Fitsf Step f)ct<
Without ever addressing tlcumfins' ccrgumie/rt
oubwt-i the Sixth dirtuiL ccffiMcd the district Court's
erder, tlamFins thin Sought ce rehearing under FFA P HO
(cO(rl) cargoing that tke panel has overlooked or
rnifstxppre fended his curg^mie/it aho\>ej c^d i\ is over foot'
frg the fcLct tkcit ihcdiefrict hcLci relied on tk<m
Strictures of kZSWOtf) mJ $
ujfiikdoes
/}ot cuppig to firft Step/let /net io/is> .
Xn /addition7 Hclu,K//is 6oug kt <a rehearing
en/xmt mnder FfflP 3S* On (fune ll^XoQn^ the panel
/SS°ed ced a-nntnded order uh/\fi Co/npieielg failed
■io erddress WcumfiinS curgoma/it pnentionad ce^oje .
0/i tfotj i<*)'Zd'2o} the hfktk Urtuit denied
UcluKint/ petitfod for cl rnhecoridp)
hane.

s,

lJa.Mk>'ns nou? flits* Lfi\5

for ou

our it of ttciiocaxi ScikiA^ & ruling 0/1 ih't
bolt a,r$v/n<,nk Uihfch Ik* £'&/? tMiuif Court
of
titktr 0vtrlooked 1 /^/Sappncfi fyid-cJ^
or fc^;Ud fo nddrjLbt'
The. distr/cL Court hcod uurrsdicUo/) to ft^r
HewKins' first Step /Jet Mol i of) u refer l% as.Cjj
35but t txtrCiStd oiurisclictio/] v O-dtr
^ 2>b’$/X(.C)(si) > Tht biXlh tircuit Court of fippArtlS
herd Jurisdiction to h'ULf HdufifiM dpp^l und<T
1% c*s.c,£ 'h7H/kQf)li)i

G\

REASONS FOR GRANTING THE PETITION

Tkrs dourt should circuit terLi orcuri to et/wsel
£/'!'• dhe distrt ct Courts decision Conflicts with
the deCigion of- Uni ■Ltd States i^ Aollocuosj ^ 954 F'2>d
do%o
fipp, LELXZS
on the srune maJ£-trj [£}- ~tU district Court erred
ty relying on the strictures o F L 3 5 #£©)(© end
{J,S>S>S>' A l $1* lQ(a){'£){&)} eg opposed to fStddCOtOCB)
MJhtn It granted in pcert cend denied in prut
Ha-uK'AiS /notion to redote in it Sentenec u Aden si
dod ot tkt Firs-L sShep flet) o^/id. Ltd-‘Titlel Sixth
Circuit pi aS either overlooKtd} nnfS clpprek enicdcd
or fiuled Lo oLcldress this issue r mi ted oo
Q—ppeMslWdwikMS Contends that in //oIjouxu/^ <lo£o U5,
ApP' LBXZS ISilS, ai * lg) the Second Circuit held!
A def tnclcLnt's el^i bilityj For cl reduced term
of i/npriSon/ne/it under f Hot of £f/ First
Lief Act ucl-S not Qoverned bi J% il&.Cd
35&2.0©) cend thus cl chStrict Court
(Considering Such a_/not)o/\ was Aot toni>lrcaa<-U t
^ iBUo(cL)(i](F).
.Jinst-eted Sud% cl/notion wclS Qouerntd by
IS VS'C* % 33^0(0(0); (And deftninni's
eligibility^ for First 5tep Ad relief u/ceS

7*

thereto
not depend enl oai ^Aether
his Su ;dell O-t S ra/)Qe mould. b*t lower
*
//
in lyht of the Fa'tr Senlenctny flci~
UCd^ cti ^5, (Set Appendix— £*). 6-tt 0.1$ 0) Untied
_Stajus u. /u/^, f8^
2)SS}3S7 (ah £ir~ %o£o)
Cnot/A^ thect 1% UJCC, %F)td>/XCC)Ct(jT) Serves ^S 4/^-t
vehicle for cl proceeding under ^HoH oF the First
/)cf; which empowers touchy to pnodlfy the
delmdouitt Senie/ice'O] Uni led Stales v* Booldln^
2>7<?
ja^ 3a/
CSL1 (£.£>. A/V^
(.noting that 1 the First Step Ad does Act / on pose
ayip) certlfle^l or guideline limits on a revleujlny
CourtO,
JT/i Contrast) the. district Court tn Mau Kirs'
CaS'C -entered Its ruling on a, Stcendcurd court
form Ao~%dl^ uuklck It cottoned: 'ORDER. RzMRDJUifc
/40TJXQ\) Fofc SEdUTE/JCE R£.&JtTSLO/U P0(CSPA(OT T°
klowevef
/$US.C, t SSF/lCOts)-"(See Appendix\% O^L^^dCOCOCB) Serves at the proper
vehicle Foe cr proceeding Under I doH of Ike First
St^p Plot1 lAjkfck ivootd Pulvl empowered the
district Court to modlFg jAaivKlnS senkerce * Fhus^
the district court erred in the First instance
£>y Improperly pcH ley
5 3S%Fi (OCT).
Tine Form cdto Indicates that ike
%*

di<strict Court took mto account the pollstate­
ment Set forth
USSQ^ lBhlO , jzJ. (order)- Th<
policy Statement Set Forth at § I&UIqC&CoOS) does
not authorize a reduction /a a defendant's 1 ter/d
of Pmpr‘SoCinneAt" where as] a~muAdmeat -«< does
/lot pauve the effect of lowering the defc/ida/itt
applicable o^uld-cUnes fael^e. (tee fippe/id/K- fd>
Hc/ic-tj F<jloluse the district court had erroneously
celled on the strict^tes of 4 SstSLiOtf) and FSfSC,
tka district Court erroneoc;slj viewed
Itself as belny unauthorized to reduce. Ha-oukias'
CLHo nooatk term of Imprisonment because kls
001delinks rnenj'L. remUnJcud unchanged after
th -L passcuy^ of the First Step flit, TP Is is
uhi the district Court reduced flaukj/s' teccJ
of super vis id rileasel but declined to r^duz^c
piidStcmi of imprison merit. douueoer1 the.
district Court A&--S treed) and its division
CoaPkC-is with thikucb^, JUlifL> and Bouldi/^,
Fr nail3) idccuklns Submits tha-t tke
Sixth Circuit did dot address h/S argument
tkcet the district Court had erroneously spiled
the leuj p\Q>vern}a<^ Ol motion under 4 SS^tltOtT)
to inis Motion under 4%^ of the First Sttp

AcC
q.

H(ku)I</as

tko_{ h;$ Ccttt
fe-c r<\ycr^d asid r^nccaMd hcud< to ih-t d?slrrc£
Court 56 t/iQ.1 /v'A /viob/OA 4o r^c/ac-t Aa$ €<-rrt op
za/i U propcrlu cuiqjy^<d und<r
i 2>S£2(c)C0(g).

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,
on 07,11 ^LucJhd</)

Date:

/X%1 do 2:o

10

UNITED STATES OF AMERICA, Appellee, v. JASON HOLLOWAY. Defendant-Appellant.
UNITED STATES COURT OF APPEALS FOR THE SECOND CIRCUIT
956 F.3d 660; 2020 U.S. App. LEXIS 13276
No. 19-1035-cr
February 26, 2020, Argued
April 24, 2020, Decided
Editorial Information: Prior History
Appeal from the United States District Court for the Western District of New York. No. 6:08-cr-6200-1 Charles J. Siragusa, Judge. Defendant Jason Holloway appeals from the denial of his motion for a
reduction of his sentence pursuant to the First Step Act in the Western District of New York (Siragusa,
J.). The district court considered the motion under 18 U.S.C. § 3582(c)(2) and therefore deemed itself
bound by § 1B1.10 of the U.S. Sentencing Guidelines, which permits a sentence reduction only to the
extent that a relevant sentencing amendment lowers the defendant's Guidelines range. The district court
concluded that Holloway's Guidelines range was unaffected by the First Step Act, and therefore held
that Holloway was ineligible for a sentence reduction under the Act. The district court did not address
Holloway's motion as to his term of supervised release. We hold that 18 U.S.C. § 3582(c)(1)(B), rather
than § 3582(c)(2), is the correct basis for a motion to reduce a term of imprisonment under the First
Step Act, and thus U.S.S.G. § 1B1.10{2020 U.S. App. LEXIS 1} does not affect a defendant's eligibility
for relief under the Act. Because we hold that Holloway was eligible for relief under the plain language of
the Act, we VACATE the order denying the motion and REMAND for further proceedings consistent with
this opinion.{2020 U.S. App. LEXIS 2}
Counsel

MARYBETH COVERT, Federal Public Defender's Office, Western
District of New York, Buffalo, NY, for Defendant-Appellant.
TIFFANY H. LEE, Assistant United States Attorney, for James
P. Kennedy, Jr., United States Attorney for the Western District of New York, Buffalo, NY, for
Appellee.
Judges: Before: PARKER, LIVINGSTON, and NARDINI, Circuit Judges.
CASE SUMMARYDefendant's appeal was not mooted by his release from prison and he remained
eligible for reduction in term of supervised release. Defendant was eligible for relief under First Step Act.
18 U.S.C.S. § 3852(c)(1 )(B) provided framework for consideration of motion for reduction of term of
imprisonment under First Step Act.
OVERVIEW: HOLDINGS: [1]-Defendant was still serving a term of supervised release, and his request
for a reduction of that term remained a live controversy; [2]-The statutory penalties for Count One, of
which defendant was convicted and for which he was sentenced , would have been lower in the wake of
the Fair Sentencing Act, and he was eligible for First Step Act relief; [3]-A defendant's eligibility for a
reduced term of imprisonment under Section 404 of the First Step Act was not governed by 18 U.S.C.S.
§ 3582(c)(2), and thus a district court considering such a motion was not constrained by U.S. Sentencing
Guidelines Manual § 1B1.10(a)(2)(b); [4]-Such a motion was governed by 18 U.S.C.S. § 3582(c)(1)(B),
and defendant's eligibility for First Step Act relief was therefore not dependent on whether his Guidelines
range would be lower in light of the Fair Sentencing Act.

CIRHOT

1

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

/IPPC^&Z/- £

'i:o

OUTCOME: Judgment vacated and remanded.
LexisNexis Headnotes
Criminal Law & Procedure > Criminal Offenses > Controlled Substances > Possession > Intent to
Distribute > Penalties
The Fair Sentencing Act, enacted in August 2010, altered the threshold drug quantities that trigger the
varying penalty ranges for crack cocaine offenses located in 21 U.S.C.S. § 841(b)(1). The Fair
Sentencing Act applied prospectively, as well as to offenses committed before the Act's enactment if the
defendant had not yet been sentenced.
Criminal Law & Procedure > Criminal Offenses > Controlled Substances > Possession > Intent to
Distribute > Penalties
Criminal Law & Procedure > Sentencing > Corrections, Modifications & Reductions > Reductions
Based on Amended Sentencing Ranges
In December 2018, Congress enacted the First Step Act, Pub. L. No. 115-391, 132 Stat. 5194. Section
404(b) of the Act provides: A court that imposed a sentence for a covered offense may, on motion of the
defendant, the Director of the Bureau of Prisons, the attorney for the Government, or the court, impose a
reduced sentence as if sections 2 and 3 of the Fair Sentencing Act of 2010 were in effect at the time the
covered offense was committed. § 404(b), 132 Stat. at 5222 Section 404(a), meanwhile, defines the term
"covered offense": In this section, the term covered offense means a violation of a Federal criminal
statute, the statutory penalties for which were modified by section 2 or 3 of the Fair Sentencing Act of
2010 that was committed before August 3, 2010. The Act limits its application only by preventing courts
from hearing motions if (1) the sentence in question was previously imposed or previously reduced in
accordance with the relevant provisions of the Fair Sentencing Act, or (2) if a previous motion was made
under the First Step Act and denied after a complete review of the motion on the merits. Finally, Section
404 states that nothing in this section shall be construed to require a court to reduce any sentence
pursuant to this section.
Criminal Law & Procedure > Sentencing > Corrections, Modifications & Reductions > Reductions
Based on Amended Sentencing Ranges
The appellate court typically reviews the denial of a motion for a discretionary sentence reduction for
abuse of discretion. However, that standard applies only if the district court exercised its discretion in the
first place.
Criminal Law & Procedure > Sentencing > Corrections, Modifications & Reductions > Reductions
Based on Amended Sentencing Ranges
Criminal Law & Procedure > Criminal Offenses > Controlled Substances > Possession > Intent to
Distribute > Penalties
Section 404 bases eligibility - that is, when a court may entertain a motion for relief under the First Step
Act - on whether a sentence was imposed for a covered offense, Pub. L. No. 115-391, § 404(b), 132
Stat. at 5222. A covered offense, in turn, is defined as a violation of a Federal criminal statute, the
statutory penalties for which were modified by section 2 or 3 of the Fair Sentencing Act of 2010 that was
committed before August 3, 2010. § 404(a), 132 Stat. at 5222 To be eligible, then, a defendant was
required to demonstrate that he was sentenced for a particular violation of a Federal criminal statute, and

CIRHOT

2

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

53703060

that the applicable statutory penalties for that violation were modified by the specified provisions of the •
Fair Sentencing Act. Section 2 of the Fair Sentencing Act altered the drug-quantity thresholds for the
imposition of penalties in 21 U.S.C.S. §§ 841 (b)(1 )(A)(iii) and 841 (b)(1 )(B)(iii).
Criminal Law & Procedure > Sentencing > Corrections, Modifications & Reductions > Reductions
Based on Amended Sentencing Ranges
A First Step Act motion, however, is not properly evaluated under 18 U.S.C.S. § 3582(c)(2). That
provision applies only if the defendant seeks a reduction because he was sentenced to a term of
imprisonment based on a sentencing range that has subsequently been lowered by the Sentencing
Commission pursuant to 28 U.S.C.S. § 994(o), i.e., a change to the Sentencing Guidelines, 18 U.S.C.S.
§ 3582(c)(2). But a First Step Act motion is based on the Act's own explicit statutory authorization, rather
than on any action of the Sentencing Commission. For this reason, such a motion falls within the scope
of § 3582(c)(1)(B), which provides that a court may modify an imposed term of imprisonment to the
extent otherwise expressly permitted by statute. This section contains no requirement that the reduction
comport with U.S. Sentencing Guidelines Manual § 1B1.10 or any other policy statement, and thus the
defendant's eligibility turns only on the statutory criteria discussed above.
Criminal Law & Procedure > Sentencing > Corrections, Modifications & Reductions > Reductions
Based on Amended Sentencing Ranges
The First Step Act provides authority to district courts to reduce imposed sentences, a term that
encompasses equally terms of imprisonment and terms of supervised release, both of which constitute
statutory penalties which were modified by sections 2 and 3 of the Fair Sentencing Act.
Criminal Law & Procedure > Sentencing > Corrections, Modifications & Reductions > Reductions
Based on Amended Sentencing Ranges
The First Step Act is clear that it does not require a court to reduce any sentence. Pub. L. No. 115-391, §
404(c), 132 Stat. at 5222.
Criminal Law & Procedure > Sentencing > Corrections, Modifications & Reductions > Reductions
Based on Amended Sentencing Ranges
Accordingly, he is eligible for First Step Act relief.(3) A defendant's eligibility for a reduced term of
imprisonment under Section 404 of the First Step Act is not governed by 18 U.S.C.S. § 3582(c)(2), and
thus a district court considering such a motion is not constrained by U.S.S.G. § 1B1.10(a)(2)(b). Instead,
such a motion is governed by 18 U.S.C.S. § 3582(c)(1)(B).
Opinion
Opinion by:

William J. Nardini
Opinion

William J. Nardini, Circuit Judge:
Defendant-Appellant Jason Holloway appeals from the denial of his February 1, 2019, motion to
reduce his sentence pursuant to Section 404 of the First Step Act. Pub. L. No. 115-391, 132 Stat.

CIRHOT

3

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

53703060

5194 (2018), in the United States District Court for the Western District of New York (Siragusa, J.).
Holloway moved for a reduction of both his 168-month term of imprisonment and his ten-year term
of supervised release. In considering Holloway's motion, the district court applied the framework of
18 U.S.C. § 3582(c)(2), including § 1B1.10 of the U.S. Sentencing Guidelines. Because Holloway
had been sentenced as a career offender, the district court concluded that his Guidelines range after
application of the First Step Act was equivalent to his original Guidelines range. Accordingly, the
district court held that Holloway was ineligible for a reduction of his term of imprisonment. The
district court did not address Holloway's motion{2020 U.S. App. LEXIS 3} for a reduction of his term
of supervised release. During the pendency of this appeal, Holloway completed his prison term and
was released from the custody of the Federal Bureau of Prisons.
We hold that Holloway's appeal was not mooted by his release from prison. Holloway remains
eligible for a reduction in his term of supervised release. On the merits, we hold that Holloway was
eligible for relief under the plain language of the First Step Act: The district court had previously
sentenced him for a covered offense under the Act, and Holloway was not otherwise barred from
relief under the Act's own limitations. We further hold that 18 U.S.C. § 3582(c)(1)(B), rather than §
3582(c)(2), provides the correct framework for consideration of a motion for a reduction of a term of
imprisonment under the First Step Act: therefore, U.S.S.G. § 1B1.10 does not prevent a district
court from considering a First Step Act motion made by a defendant whose new Sentencing
Guidelines range is equivalent to his original range. Accordingly, we VACATE the order denying
Holloway's motion and REMAND for proceedings consistent with this opinion.
I. BACKGROUND
A. Holloway's Initial Conviction and Sentencing
On September 24, 2008, Holloway was charged in a three-count{2020 U.S. App. LEXIS 4}
indictment. As relevant to this appeal, he pled guilty on January 9, 2009, to Count One, which
charged him with possessing "with the intent to distribute fifty (50) grams of more of a mixture and
substance containing a detectable amount of cocaine base," in violation of 21 U.S.C. §§ 841(a)(1)
and 841(b)(1)(A). In his plea agreement, Holloway conceded that he possessed more than 50 but
less than 150 grams of cocaine base, and that the government had seized 66.33 grams of cocaine
base from him in February 2008. Holloway also conceded two prior convictions, which the
government and Holloway agreed rendered him a career offender under U.S.S.G. § 4B1.1.
Additionally, the government filed an information pursuant to 21 U.S.C. § 851 establishing a prior
felony drug conviction. The parties accordingly agreed to a Guidelines range of 262-327 months of
imprisonment and ten years of supervised release. Finally, the agreement contained terms of
cooperation, by which the government would seek a departure under U.S.S.G. § 5K1.1 and 18
U.S.C. § 3553(e).
The Probation Office then prepared a Presentence Investigation Report (PSR) agreeing with the
parties' Guidelines calculations, and the government ultimately moved for a four-level downward
departure per the terms of cooperation, leading to a recommended{2020 U.S. App. LEXIS 5}
sentencing range of 168-210 months of imprisonment. The sentencing took place on June 22, 2010.
The district court accepted the PSR calculations, granted the government's motion for a departure,
and sentenced Holloway to 168 months in prison followed by ten years of supervised release.
B. The Fair Sentencing Act and First Step Act
The Fair Sentencing Act, enacted in August 2010, altered the threshold drug quantities that trigger
the varying penalty ranges for crack cocaine offenses located in 21 U.S.C. § 841(b)(1). See Pub. L.
No. 111-220, § 2(a), 124 Stat. 2372, 2372. As relevant to Holloway, the Fair Sentencing Act

CIRHOT

4

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

5370306-

increased the threshold quantity for conviction under § 841(b)(1)(A) from 50 to 280 grams of crack
cocaine. Id. The Fair Sentencing Act applied prospectively, as well as to offenses committed before
the Act's enactment if the defendant had not yet been sentenced. But it did not apply retroactively to
defendants, like Holloway, who had been sentenced before the Act became effective. See United
States v. Dorsey, 567 U.S. 260, 281, 132 S. Ct. 2321, 183 L. Ed. 2d 250 (2012).1
In December 2018, Congress enacted the First Step Act. Pub. L. No. 115-391, 132 Stat. 5194.
Section 404(b) of the Act provides:
A court that imposed a sentence for a covered offense may, on motion of the defendant, the
Director of the Bureau of Prisons, the attorney for the Government, or the court, impose a
reduced sentence{2020 U.S. App. LEXIS 6} as if sections 2 and 3 of the Fair Sentencing Act of
2010 were in effect at the time the covered offense was committed.Id. § 404(b), 132 Stat. at
5222 (citation omitted). Section 404(a), meanwhile, defines the term "covered offense":
In this section, the term "covered offense" means a violation of a Federal criminal statute, the
statutory penalties for which were modified by section 2 or 3 of the Fair Sentencing Act of 2010
that was committed before August 3, 2010.Id. § 404(a), 132 Stat. at 5222 (citation omitted). The
Act limits its application only by preventing courts from hearing motions if (1) the sentence in
question "was previously imposed or previously reduced" in accordance with the relevant
provisions of the Fair Sentencing Act, or (2) if a previous motion was made under the First Step
Act and denied "after a complete review of the motion on the merits." Id. § 404(c), 132 Stat. at
5222. Finally, Section 404 states that "[n]othing in this section shall be construed to require a
court to reduce any sentence pursuant to this section." Id.
C. Holloway's Motion for First Step Act Relief
After the First Step Act was enacted, Holloway moved for a sentence reduction pursuant to Section
404 on February 1, 2019. The Probation Office produced a supplemental PSR, in which it concluded
that Holloway was not eligible for{2020 U.S. App. LEXIS 7} a reduction of his term of imprisonment.
The Probation Office interpreted Holloway's motion as one made under 18 U.S.C. § 3582(c)(2),
meaning that any reduction would need to be consistent with policy statements of the Sentencing
Commission. This included U.S.S.G. § 1B1.10(a)(2), which precludes reductions if the relevant
amendment to the Sentencing Guidelines would "not have the effect of lowering the defendant's .
applicable guideline range." Concluding that Holloway's revised Guidelines range was equivalent to
his original range, the PSR opined that Holloway was not eligible for a reduction of his term of
imprisonment under the First Step Act.2 The PSR did, however, note that Holloway's mandatory
minimum period of supervised release had been reduced statutorily to eight years rather than ten.3
The government subsequently agreed with the PSR's conclusion that Holloway was not eligible for
any relief from his term of imprisonment because his Guidelines range was unchanged. The
government also agreed that Holloway's statutory minimum supervised release term had been
reduced and that he was thus eligible for a reduction on that front.
The district court, in a one-page order issued on April 8, 2019, agreed with the{2020 U.S. App.
LEXIS 8} Probation Office and the government that Holloway was ineligible for a reduction of his
prison term, finding that, under U.S.S.G. § 1B1.10(a)(2)(B), "the amendment does not have the
effect of lowering [Holloway's] applicable guideline range[ and a]s such, the defendant is not eligible
for a sentence reduction." Joint App'x at 111. The order did not address Holloway's supervised
release term. Holloway filed a timely appeal from the order on April 15, 2019. On October 4, 2019,
while this appeal was pending, Holloway was released from prison. He remains on supervised
release.

CIRHOT

5

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

53703060

\

and a minimum of ten years of supervised release.5 Under the new crack cocaine quantity
thresholds enacted by the Fair Sentencing Act, his violation of Count One would have subjected
Holloway to the lower statutory range of sentences set forth in § 841(b)(1)(B) - namely, ten years to
life in prison, and eight or more years of supervised release. As a result, because Section 2 of the
Fair Sentencing Act modified the statutory penalties for the violation of 21 U.S.C. § 841(a) charged
in Count One, for which he was sentenced - and because Holloway is not subject to either of the
textual limitations imposed by Section 404(c) of the First Step Act - Holloway is eligible for relief
under the plain language of the First Step Act.
The district court denied the motion, however, on the basis that Holloway's new Guidelines range
would be no different from his original range. Without the benefit of any precedential{2020 U.S. App.
LEXIS 12} interpretations of the First Step Act, the district court (and the Probation Office)
understandably treated Holloway's motion for relief as one brought under 18 U.S.C. § 3582(c)(2) - a
familiar procedural vehicle that has absorbed a considerable portion of district court dockets in recent
years.6 As noted above, the district court thus considered itself bound by U.S.S.G. § 1B1.10(a)(2),
see, e.g., United States v. Williams, 551 F.3d 182, 186 (2d Cir. 2009) (noting that language of §
3582(c)(2) makes clear that courts "are bound" by U.S.S.G. § 1B1.10 when considering motions
under the statute), and it denied Holloway's motion because his Guidelines range was unchanged
due to his status as a career offender.
A First Step Act motion, however, is not properly evaluated under 18 U.S.C. § 3582(c)(2). That
provision applies only if the defendant seeks a reduction because he was sentenced "to a term of
imprisonment based on a sentencing range that has subsequently been lowered by the Sentencing
Commission pursuant to 28 U.S.C. § 994(o)," i.e., a change to the Sentencing Guidelines.7 18
U.S.C. § 3582(c)(2). But a First Step Act motion is based on the Act's own explicit statutory
authorization, rather than on any action of the Sentencing Commission. For this reason, such a
motion falls within the scope of § 3582(c)(1)(B), which provides that a "court may modify an imposed
term of imprisonment to the{2020 U.S. App. LEXIS 13} extent otherwise expressly permitted by
statute."8 This section contains no requirement that the reduction comport with U.S.S.G. § 1B1.10 or
any other policy statement, and thus the defendant's eligibility turns only on the statutory criteria
discussed above. Accordingly, Holloway was eligible for a reduction in his term of imprisonment,
and the district court erred in denying his motion solely on the basis that it believed itself to be bound
by U.S.S.G. § 1B1.10.
Holloway likewise was eligible for a reduction in his term of supervised release, an issue not
addressed by the district court in its denial of Holloway's motion. The First Step Act provides
authority to district courts to reduce imposed sentences, a term that encompasses equally terms of
imprisonment and terms of supervised release, both of which constitute statutory penalties which
were modified by sections 2 and 3 of the Fair Sentencing Act. Cf. Mont v. United States, 139 S. Ct.
1826, 1834, 204 L. Ed. 2d 94 (2019) ("Supervised release is a form of punishment that Congress
prescribes along with a term of imprisonment as part of the same sentence." (citing 18 U.S.C. §
3583)). Holloway's eligibility for a reduction in his term of supervised release thus turns on the same
statutory criteria as does his eligibility for a reduction in his term{2020 U.S. App. LEXIS 14} of
imprisonment.9
Finally, we emphasize what this opinion does not decide: First, while Holloway is plainly eligible for
relief, he is not necessarily entitled to relief. The First Step Act is clear that it does not "require a
court to reduce any sentence." Pub. L. No. 115-391, § 404(c), 132 Stat. at 5222. Whether Holloway's
remaining term of supervised release should be reduced is a matter left to the district court's sound
discretion. Second, because these issues are not properly before us, we do not decide the procedural

CIRHOT

7

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

5370306f

requirements for consideration of a sentence reduction under the Act once eligibility has been
determined, nor do we decide - except as noted above - what factors the district court may (or must)
consider in weighing whether and to what extent a sentence reduction is warranted. We leave these
and other questions concerning the First Step Act for another day.
111. CONCLUSION
To summarize, we hold as follows:
(1) A defendant's release from prison during the pendency of an appeal of a denial of First Step
Act relief does not moot the appeal, to the extent that the district court could still reduce an
undischarged term of supervised release. Holloway is still serving a term of supervised release,
and his request for a{2020 U.S. App. LEXIS 15} reduction of that term remains a live
controversy.
(2) Where a defendant is not otherwise ineligible for First Step Act relief according to the
limitations set forth in Section 404(c) of that Act, the defendant's eligibility depends only on
whether the statutory penalties for the violation for which the defendant was sentenced were
modified by Sections 2 and 3 of the Fair Sentencing Act. In Holloway's case, the statutory
penalties for Count One - of which he was convicted and for which he was sentenced - would
have been lower in the wake of the Fair Sentencing Act. Accordingly, he is eligible for First Step
Act relief.
(3) A defendant's eligibility for a reduced term of imprisonment under Section 404 of the First
Step Act is not governed by 18 U.S.C. § 3582(c)(2), and thus a district court considering such a
motion is not constrained by U.S.S.G. § 1B1.10(a)(2)(B). Instead, such a motion is governed by
18 U.S.C. § 3582(c)(1)(B). Holloway's eligibility for First Step Act relief was therefore not
dependent on whether his Guidelines range would be lower in light of the Fair Sentencing Act.
For the foregoing reasons, we VACATE the order denying Holloway's First Step Act motion and
REMAND for consideration of a reduction in Holloway’s term of supervised release consistent with
this opinion.
Footnotes

1
Holloway moved unsuccessfully for sentence reductions based on subsequent amendments to the
Guidelines offense levels for crack cocaine offenses that the U.S. Sentencing Commission had
made retroactive. See 75 Fed. Reg. 66188 (Oct. 27, 2010) (Emergency Amendment); U.S.S.G. App.
C. Amend. 750 (2011) (codifying Emergency Amendment); U.S.S.G. App. C. Amend. 782 (2014).
Holloway moved for these reductions pursuant to 18 U.S.C. § 3582(c)(2), which, as discussed
below, requires that any reduction be consistent with Commission policy statements. Because
Holloway was sentenced as a career offender, the Guidelines amendments did "not have the effect
of lowering [his] applicable guideline range," and he was therefore ineligible for relief under U.S.S.G.
§1B1.10(a)(2)(B).
2
Holloway had been sentenced as a career offender, and, accordingly, his Guidelines range
depended on the statutory maximum term of imprisonment for his offense. See U.S.S.G. § 4B1.1. In
his case, however, that maximum was unchanged by the Fair Sentencing Act. Compare 21 U.S.C. §

CIRHOT

8

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

537030t;0

841(b)(1)(A) (10 years to life), with id. § 841(b)(1)(B) (10 years to life for a person who has previously
been convicted of a serious drug felony).
3
Because Holloway was sentenced subject to a § 851 information establishing a prior felony drug
conviction, he faced statutory minimum penalties of twenty years of imprisonment rather than ten,
and ten years of supervised release rather than five.
4
The relevance of a defendant's underlying offense conduct to the eligibility determination is not
before us in this case, and so we leave that particular question to a future appeal.
5
We emphasize that the inquiry under the plain language of the First Step Act is not whether the
defendant was "charged with” a covered offense, but whether the court had previously "imposed a
sentence" for a covered offense. Pub. L. No. 115-391, § 404(b), 132 Stat. at 5222. This can be a
meaningful distinction in particular cases, for example where a defendant pleads guilty and is
sentenced to a lesser-included offense of the one outlined in the indictment. There may also be a
disjuncture between the language of the indictment and the violation for which a defendant was
sentenced in cases predating United States v. Thomas, 274 F.3d 655 (2d Cir. 2001) (en banc), where
we first held that the drug quantity thresholds under 21 U.S.C. § 841(b)(1)(A) were elements of the
offense which needed to be alleged in a charging document. Accordingly, it is important to remain
focused on the violation for which the district court "imposed a sentence" - a violation that might or
might not correspond to the language of the indictment, depending on the case.
6
The district court issued its ruling on a standard court form AO-247, which is captioned "ORDER
REGARDING MOTION FOR SENTENCE REDUCTION PURSUANT TO FIRST STEP ACT AND 18
U.S.C. § 3582(c)(1)(B)." Joint App'x at 111. Notwithstanding the form's opening recitation that the
district court had considered § 3582(c)(1)(B), it is apparent from the ruling inserted by the court that it
had, instead, considered itself bound by U.S.S.G. § 1B1.10(a)(2)(B), and therefore that it was
operating under the rubric of § 3582(c)(2).
7
This authority, in relevant part, provides that "[t]he Commission periodically shall review and revise,
in consideration of comments and data coming to its attention, the guidelines promulgated pursuant
to the provisions of this section." 28 U.S.C. § 994(o).
8
In so holding, we agree with the other Courts of Appeals to have thus far addressed this question.
See United States v. Wirsing, 943 F.3d 175, 183 (4th Cir. 2019); United States v. Beamus, 943 F.3d
789, 792 (7th Cir. 2019); United States v. Gibbs, 787 F. App’x 71, 72 n.1 (3d Cir. 2019) (mem.); see
also McDonald, 944 F.3d at 772 (noting that eligibility for relief turns only on offense of conviction).
9
Both parties agree that, because the government moved under 18 U.S.C. § 3553(e) at Holloway's
original sentencing, the district court was not bound at that sentencing by the ten-year statutory
minimum term of supervised release then applicable under 18 U.S.C. § 841(b)(1)(A). We hold - and
the parties again agree - that the district court would likewise remain unconstrained on remand by the
newly lowered statutory minimum of eight years (if indeed it chooses to exercise its discretion to
reduce Holloway's term of supervised release).

CIRHOT

9

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

^3703050

Ch. 1 Pt. A

§1B1.10. Reduction in Term of Imprisonment as a Result of Amended Guideline Range (Policy
Statement)

(a)

AUTHORITY,

0)

IN GENERAL.—In a case in which a defendant is serving a term of imprisonment, and the
guideline range applicable to that defendant has subsequently been lowered as a result of an amendment to
the Guidelines Manual listed in subsection (d) below, the court may reduce the defendant’s term of
imprisonment as provided by 18 U.S.C. § 3582(c)(2). As required by 18 U.S.C. § 3582(c)(2), any such
reduction in the defendant’s term of imprisonment shall be consistent with this policy statement.
EXCLUSIONS.—A reduction in the defendant’s term of imprisonment is not consistent with this
policy statement and therefore is not authorized under 18 U.S.C. § 3582(c)(2) if—
(2)

(A)

none of the amendments listed in subsection (d) is applicable to the defendant; or

an amendment listed in subsection (d) does not have the effect of lowering the defendant’s
(B)
applicable guideline range.
LIMITATION.—Consistent with subsection (b), proceedings under 18 U.S.C. § 3582(c)(2) and
(3)
this policy statement do not constitute a full resentencing of the defendant.
(b)

DETERMINATION OF REDUCTION IN TERM OF IMPRISONMENT.—

IN GENERAL.—In determining whether, and to what extent, a reduction in the defendant’s term
(1)
of imprisonment under 18 U.S.C. § 3582(c)(2) and this policy statement is warranted, the court shall
determine the amended guideline range that would have been applicable to the defendant if the'
amendment(s) to the guidelines listed in subsection (d) had been in effect at the time the defendant was
sentenced. In making such determination, the court shall substitute only the amendments listed in subsection
(d) for the corresponding guideline provisions that were applied when the defendant was sentenced and
shall leave all other guideline application decisions unaffected.

ucsent

1

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

F
C 07 y"'p _, *■
w O f v;

Ch. 1 Pt. A

(2)

LIMITATION AND PROHIBITION ON EXTENT OF REDUCTION,

LIMITATION.—Except as provided in subdivision (B), the court shall not reduce the defendant’s
(A)
term of imprisonment under 18 U.S.C. § 3582(c)(2) and this policy statement to a term that is less than the
minimum of the amended guideline range determined under subdivision (1) of this subsection.
(B)
EXCEPTION FOR SUBSTANTIAL ASSISTANCE.—If the term of imprisonment imposed was
less than the term of imprisonment provided by the guideline range applicable to the defendant at the time
of sentencing pursuant to a government motion to reflect the defendant’s substantial assistance to
authorities, a reduction comparably less than the amended guideline range determined under subdivision (1)
of this subsection may be appropriate.
PROHIBITION.—In no event may the reduced term of imprisonment be less than the term of
(C)
imprisonment the defendant has already served.
(c)
CASES INVOLVING MANDATORY MINIMUM SENTENCES AND SUBSTANTIAL
ASSISTANCE.—If the case involves a statutorily required minimum sentence and the court had the
authority to impose a sentence below the statutorily required minimum sentence pursuant to a government
motion to reflect
§ 1B1.10
the defendant’s substantial assistance to authorities, then for purposes of this policy statement the amended
guideline range shall be determined without regard to the operation of §5G1.1 (Sentencing on a Single
Count of Conviction) and §5G1.2 (Sentencing on Multiple Counts of Conviction).
COVERED AMENDMENTS.—Amendments covered by this policy statement are listed in
(d)
Appendix C as follows: 126, 130, 156, 176, 269, 329, 341, 371, 379, 380, 433, 454, 461, 484, 488, 490,
499, 505, 506, 516, 591, 599, 606, 657, 702, 706 as amended by 711, 715, 750 (parts A and C only), and
782 (subject to subsection (e)(1)).
(e)

SPECIAL INSTRUCTION.—

(1) The court shall not order a reduced term of imprisonment based on Amendment 782 unless the effective
date of the court’s order is November 1, 2015, or later.

ucsent

2

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use ofthis product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

53703050

(c) Modification of an imposed term of imprisonment. The court may not modify a term
of imprisonment once it has been imposed except that—
(1) in any case—
(A) the court, upon motion of the Director of the Bureau of Prisons, or upon
motion of the defendant after the defendant has fully exhausted all administrative rights to appeal
a failure of the Bureau of Prisons to bring a motion on the defendant’s behalf or the lapse of 30
days from the receipt of such a request by the warden of the defendant’s facility, whichever is
earlier, may reduce the term of imprisonment (and may impose, a term of probation or supervised
release with or without conditions that does not exceed the unserved portion of the original term
of imprisonment), after considering the factors set forth in section 3553(a) [18 USCS § 3553(a)]
to the extent that they are applicable, if it finds that—
(i) extraordinary and compelling reasons warrant such a reduction; or
(ii) the defendant is at least 70 years of age, has served at least 30 years in
.. prison, pursuant to a sentence imposed under section 3559(c) [18 USCS § 3559(c)], for the
offense or offenses for which the defendant is currently imprisoned, and a determination has been
made by the Director of the Bureau of Prisons that the defendant is not a danger to the safety of
any other person or the community, as provided under section 3142(g) [18 USCS § 3142];
and that such a reduction is consistent with applicable policy statements issued by the
Sentencing Commission; and
(B) the court may modify an imposed term of imprisonment to the extent
otherwise expressly permitted by statute or by Rule 35 of the Federal Rules of Criminal
Procedure; and
(2) in the case of a defendant who has been sentenced to a term of imprisonment based on
a sentencing range that has subsequently been lowered by the Sentencing Commission pursuant to
28 U.S.C. 994(o), upon motion of the defendant or the Director of the Bureau of Prisons, or on
its own motion, the court may reduce the term of imprisonment, after considering the factors set
forth in section 3553(a) [18 USCS § 3553(a)] to the extent that they are applicable, if such a
reduction is consistent with applicable policy statements issued by the Sentencing Commission.

uses

1

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

51 /'0 'X

"i

c* ft- e ?Ai.

V

::;

r

.••■s’

f>o

^zcAA77'

1

,c

>

■:

16J> CzX-

d. 3-A. At eoo 44 ""4 °^ p)
. r

r-,

, b ls \
t

>{

(CO, PlvTtt^^'t

A

,-VS fyn [oS-ZcyA

•t.

A)
M
1

n

/kA

*,

AsC+Ah^-

•

’«;
f

pojjdj

^' °0fA. <fc^

ALtAd /

/sjj-t

'*,

, -{

♦

• o
i-

5 '

.'j

!..:.
i

i

■>,

/

X-Ad f.

y/uA

" i'zZtZiA*
isn&O
0S^

jhtXA—

’.

.

.... ^ -j -vr
b';.‘i .;

't

}'*: ,1 '

.-’'H

j

\ V’*-’

(W')

Sentencing Commission then promulgated amendments to the guidelines, reducing the
recommended sentencing ranges to levels consistent with the Fair Sentencing Act. See U.S.
Sentencing Guidelines Manual App. C Amends. 750, 759 (2011).
B.
On December 21, 2018, Congress passed the First Step Act of 2018 ("FSA"). P.L. 115-391. The law
permitted the retroactive application of the Fair Sentencing Act and the associated guideline ranges.
Section 404 of the FSA provides.
(a) DEFINITION OF COVERED OFFENSE.-In this section, the term{2019 U.S. Dist. LEXIS 3}
"covered offense" means a violation of a Federal criminal statute, the statutory penalties for
which were modified by section 2 or 3 of the Fair Sentencing Act of 2010 (Public Law 111-220;
124 Stat. 2372), that was committed before August 3, 2010.
.(b) DEFENDANTS PREVIOUSLY SENTENCED.-A court that imposed a sentence for a covered
offense may, on motion of the defendant, the Director of the Bureau of Prisons, the attorney for
the Government, or the court, impose a reduced sentence as if sections 2 and 3 of the Fair
Sentencing Act of 2010 (Public Law 111-220; 124 Stat. 2372) were in effect at the time the
covered offense was committed.
(c) LIMITATIONS.-No court shall entertain a motion made under this section to reduce a
sentence if the sentence was previously imposed or previously reduced in accordance with the
amendments made by sections 2 and 3 of the Fair Sentencing Act of 2010 (Public Law 111-220;
124 Stat. 2372) or if a previous motion made under this section to reduce the sentence was, after
the date of enactment of this Act, denied after a complete review of the motion on the merits.
Nothing in this section shall be construed to require a court to reduce any sentence pursuant to
this section.P.L. 115-391, Section 404.
1.
18 U.S.C. § 3582 governs the reduction of a criminal sentence and provides that a "court may not
modify a term of imprisonment once it{2019 U.S. Dist. LEXIS 4} has been imposed" except pursuant
to specific exceptions. One of these exceptions is contained within 18 U.S.C. § 3582(c)(1)(B) which
provides:
The court may not modify a term of imprisonment once it has been imposed except that--the
court may modify an imposed term of imprisonment to the extent otherwise expressly permitted
by statute or by Rule 35 of the Federal Rules of Criminal Procedure.18 U.S.C. § 3582(c)(1)(B)
(emphasis added).
§ 3582(c)(1)(B) is the proper vehicle for implementing the FSA. As directed in § 3582(c)(1)(B), the
FSA "expressly permit[s]" the modification of a term of imprisonment. Moreover, many district courts
in recent months have concluded that 18 U.S.C. § 3582(c)(1)(B) is the proper method to implement
the FSA. See, e.g., United States v. Boulding, 379 F. Supp. 3d 646, 2019 WL 2135494, at *6 (W.D.
Mich. 2019) ("The Court's authority to impose a modified sentence under the FSA is rooted in 18
U.S.C. § 3582(c)(1)(B)."): United States v. Potts, 2019 U.S. Dist. LEXIS 35386, 2019 WL 1059837,
at *3 (S.D. FI. Mar. 6, 2019) ("§ 3582(c) provides the procedural vehicle whereby this Court may
modify Defendant's sentence."); United States v. Delaney, 2019 U.S. Dist. LEX|S 28792, 2019 WL
861418, at *1 (W.D. Va. Feb. 22, 2019) ("Modifications of sentences under the FSA are governed by
18 U.S.C. § 3582(c)(1)(B)..."): United States v. Kamber, 2019 U.S. Dist. LEXIS 15691, 2019 WL
399935, at *2 (S.D. III. Jan. 31, 2019) (determining that the FSA "can serve as a basis for relief under
§ 3582(c)(1)(B)").

1 yfcases

2

© 2019.Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

;k-

53703060

